CERTIFICATE OF SERVICE
MIKE KELLY, U.S. CONGRESSMAN, ET AL.,
Applicants,
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.
I, John M. Reeves, certify that the original and 1 copy of the foregoing
motion and brief of Amicus Curiae the Eagle Forum Education and Legal
Defense Fund in support of the applicants in 20A98, Mike Kelly, et al., v.
Commonwealth of Pennsylvania, et al., were sent via email to the below
individuals, as well as uploaded to the U.S. Supreme Court’s efiling system,
on the evening of December 7, 2020.
I further certify that on December 8, 2020, the original and 1 copy of the
foregoing motion and brief are being mailed via Next Day Service to the U.S.
Supreme Court, and a single additional copy is being sent via 3-day service to
each of the following:
Michele D. Hangley
Robert A. Wiygul
John G. Coit
Christina C. Matthias
John B. Hill
Hangley Aronchick Segal Pudlin & Schiller
One Logan Square, 27th Floor
Philadelphia, PA 19103-6933
(215) 568-6200
mhangley@hangley.com
rwiygul@hangley.com
jcoit@hangley.com
cmatthias@hangley.com
jhill@hangley.com
Barry H. Berke
Dani R. James
Kramer Levin Naftalis & Frankel LLP
1177 Avenue of the Americas
New York, New York 10036

(212) 715-9308
bberke@kramerlevin.com
djames@kramerlevin.com
J. Bart De Lone
Chief Deputy Attorney General
Chief, Appellate Litigation Section
Sean A. Kirkpatrick
Senior Deputy Attorney General
Office of Pennsylvania Attorney General
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 783-3226
jdelone@attorneygeneral.gov
skirkpatrick@attorneygeneral.gov
Counsel for Respondents Commonwealth of Pennsylvania, Thomas W. Wolf,
and Kathy Boockvar
Jonathan F. Bloom
Karl S. Myers
Spencer R. Short
Melissa L. Perry
Stradley Ronon Stevens and Young, LLP
2005 Market Street, Suite 2600
Philadelphia, PA 19103
(215) 564-8000
jbloom@stradley.com
kmyers@stradley.com
sshort@stradley.com
mperry@stradley.com

Counsel for Respondent Pennsylvania General Assembly

Gregory H. Teufel
OGFC Law, LLC
1575 McFarland Road, Suite 201
Pittsburgh, PA 15216
(412) 253-4622
gteufel@ogclaw.net
Counsel for Applicants

